   August 31, 2004




Acquisition
Acquisition of the EA-6B Improved
Capability III Program
(D-2004-113)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
COMOPTEVFOR           Commander, Operational Test and Evaluation Force
DITSCAP               Department of Defense Information Technology Security
                         Certification and Accreditation Process
GAO                   General Accountability Office
IATO                  Interim Authority to Operate
ICAP                  Improved Capability
OA                    Operational Assessment
                            INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 222024704



                                                                         August 31,2004
MEMORANDUM FOR NAVAL INSPECTOR GENERAL
SUBJECT: Report on Acquisition of the EA-6B Improved Capability JII Program
         (Report No. D-2004-113)

      We are providing this report for review and comment. We considered
management comments on a draft of this report in preparing the final report.
       DoD Directive 7650.3 requires that all recommendations be resolved promptly. In
response to the final report, we request that the Deputy Assistant Secretary of the Navy
(Air Programs), Office of the Assistant Secretary of the Navy (Research, Development
and Acquisition) reconsider his position on Recommendations C.1. and C.2. and provide
additional comments by September 30,2004.
       If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Audarn@dodia.osd.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the I Signed I
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Rodney D. Britt at (703) 604-9096 @SN 664-9096) or Ms. Melinda M. Oleksa at
(703) 604-9093 @SN 664-9093). The team members are listed inside the back cover.
See Appendix G for the report distribution.
                               By direction of the Deputy Inspector General for Auditing:




                                      for ~ c ~ u i s i t i Management
                                                            on
          Office of the Inspector General of the Department of Defense
Report No. D-2004-113                                                     August 31, 2004
   (Project No. D2003AE-0190)

        Acquisition of the EA-6B Improved Capability III Program

                                 Executive Summary

Who Should Read This Report and Why? Civil service and military managers
involved in the management, support, and oversight of the EA-6B Improved Capability
(ICAP) III Program should read this report because it discusses acquisition issues that
must be addressed before the EA-6B ICAP III Program progresses further through the
acquisition process.

Background. The Services use the airborne electronic attack capability to suppress and
degrade an opposing force’s air defense and communication systems with airborne
electronic jamming before offensive airborne strikes. The Navy’s EA-6B Prowler
(EA-6B) is the only DoD platform that provides the Services with an airborne electronic
attack capability and must be able to suppress and degrade current and future threats
through 2015. The EA-6B ICAP III Program will provide the EA-6B aircraft with
upgraded selective-reactive jamming and threat emitter geo-location capabilities. In
June 2003, the Assistant Secretary of the Navy (Research, Development, and
Acquisition) approved the program for low-rate initial production. The Program
Manager for the EA-6B (the Program Manager) subsequently awarded the prime
contractor, Northrop Grumman Integrated Systems, Bethpage, New York, a firm-fixed-
price modification to the development contract for low-rate initial production of 10 ICAP
III system kits for $102 million. The Navy plans to acquire 35 ICAP III system kits for
installation on 35 EA-6B aircraft. As of June 2004, the ICAP III Program costs consisted
of an estimated $335 million in research, development, test and evaluation funds,
$458 million in procurement funds, and $109 million in operations and support funds for
a total program cost of $902 million.

Results. The Program Manager provided the Assistant Secretary of the Navy (Research,
Development, and Acquisition) with incomplete information on the operational
assessment that the Commander, Operational Test and Evaluation Force prepared in
support of the ICAP III Program low-rate initial production decision. Further, the
Designated Approving Authority for the Naval Air Systems Command issued an Interim
Authority to Operate that was needed to begin the operational test phase of the ICAP III
information system before the information system security requirements were complete.
Finally, the Program Manager did not require the subcontractor, through the prime
contractor, for the ICAP III Tactical Jamming System Receiver to submit updated
reliability prediction data needed to determine the best support strategy for the receiver
system. As a result, the Assistant Secretary of the Navy (Research, Development, and
Acquisition) approved the program for low-rate initial production, increasing the risk that
costly retrofit expenses will occur to correct the design deficiencies for the low-rate
initial production systems and incurring higher than expected sustainment costs for the
receiver when the ICAP III Program becomes operational. Ensuring the resolution of the
critical operational issues and identifying fixes for the additional deficiencies identified
in the operational assessment will increase the likelihood that the ICAP III system will
perform satisfactorily and enable the milestone decision authority to make a fully
informed full-rate production decision. Completing required elements of the Department
of Defense Information Technology Security Certification and Accreditation Process
before issuing authority to operate will provide assurance to decision makers that the
ICAP III information system will meet information assurance requirements. Performing
analysis and corrective action on the ICAP III hardware failures will enable the Program
Manager to determine the most effective method for meeting future ICAP III sustainment
needs. See the Findings section of the report for detailed recommendations.

The Program Manager’s execution of the management control program was generally
adequate. However, he should include a review of test and evaluation results,
information assurance, and system reliability failure reviews in his self-assessments.

Management Comments. We received comments from the Deputy Assistant Secretary
of the Navy (Air Programs), who responded for the Assistant Secretary of the Navy
(Research, Development, and Acquisition); the Commander, Naval Air Systems
Command; and the Program Manager for the EA-6B. Although the Deputy Assistant
Secretary nonconcurred with the finding on the readiness of the EA-6B ICAP III for low-
rate initial production, he stated that the Commander, Operational Test and Evaluation
Force would determine whether the 22 critical operational issues were satisfactorily
resolved as part of the dedicated operational test and evaluation. The Deputy Assistant
Secretary also stated that the Assistant Secretary of the Navy (Research, Development,
and Acquisition) had established the criteria to demonstrate that the EA-6B Improved
Capability III Program was operationally effective and suitable before approval for full-
rate production. Also, the Deputy Assistant Secretary agreed that the Naval Air Systems
Command would implement recommended actions to complete required elements of the
Defense Information Technology Security Certification and Accreditation Process to
ensure that the EA-6B ICAP III meets information assurance requirements. Further, the
Deputy Assistant Secretary stated that the Naval Inventory Control Point would revise
the reliability predictions for the Tactical Jamming System Receiver, using reliability
data from the dedicated technical and operational tests, to determine the most effective
method for meeting ICAP III sustainment needs. The Deputy Assistant Secretary did not
agree that the subcontractor for the Tactical Jamming System Receiver needed to cross-
reference actions taken to close each failure identified in the subcontractor’s failure
logbook or obtain, through the prime contractor, an updated failure modes and effects and
critical analysis document required by the Systems Engineering Management Plan. See
the Findings section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.

Audit Response. In response to the final report, we request that the Deputy Assistant
Secretary of the Navy (Air Programs) reconsider his position on requiring that the
subcontractor for the Tactical Jamming System Receiver document, through the prime
contractor, the failure logbook as required and update the failure modes and effects and
critical analysis document. We request that the Deputy Assistant Secretary provide the
additional comments by September 30, 2004.




                                            ii
Table of Contents

Executive Summary                                                               i

Background                                                                      1

Objectives                                                                      2

Findings
     A. Readiness for Low-Rate Initial Production                               3
     B. An Interim Authority to Operate Improved Capability III Information
          Systems                                                              12
     C. Use of Failure Data for the Improved Capability III Program Hardware   17

Appendixes
     A. Scope and Methodology                                                  23
         Management Control Program Review                                     24
         Prior Coverage                                                        25
     B. Other Matters of Interest                                              26
     C. Upgrades for the Improved Capability III System                        27
     D. Additional Recommendations for the Operational Assessment of the
          Improved Capability III System                                       28
     E. Navy Development and Operational Test Procedures                       31
     F. Audit Response to Management Comments on the Report                    33
     G. Report Distribution                                                    34

Management Comments
     Department of the Navy                                                    37
Background
           The Services use the Navy’s airborne electronic attack capability to suppress and
           degrade an opposing force’s air defense and communication systems with airborne
           electronic jamming before offensive airborne strikes. The Navy defines an
           airborne electronic attack as a radio frequency system, hosted on an airborne
           platform, which limits the attack of air breathing (non-space) free flight vehicles.
           The Navy’s EA-6B Prowler (EA-6B) is the only DoD platform that provides the
           Services with an airborne electronic attack capability and must be able to suppress
           and degrade current and future threats through 2015. The EA-6B aircraft became
           the only DoD tactical jamming aircraft when the Air Force terminated the EF-111
           Program in 1995. Accordingly, the Navy EA-6B aircraft is now considered a
           national asset.

           Airborne Electronic Attack Requirements. The Navy operates 19 EA-6B
           squadrons; 11 are carrier-based squadrons, 4 are joint Air Force and Navy
           expeditionary squadrons, and 4 are Marines Corps expeditionary squadrons.1 The
           Navy and Air Force have shared the 4 expeditionary squadrons since the Air
           Force terminated the EF-111 Program. As of June 2004, the Navy has 119 EA-6B
           aircraft, of which 48 are in repair, 30 are assigned to Navy aircraft carrier
           squadrons, 9 are assigned to Navy expeditionary squadrons, 15 are assigned to
           Marine Corps expeditionary squadrons, 13 are assigned for fleet replacement2,
           and 4 are assigned for reserve training and testing. In 2015, the Navy plans to
           retire the EA-6B aircraft and discontinue the expeditionary squadrons after it
           acquires 90 EA-18G replacement aircraft to support its carrier-based squadrons.
           As programmed, the Navy will not support requirements for future airborne
           electronic attack missions of the Air Force and Marine Corps.

            EA-6B Program. The first EA-6B production aircraft was introduced in 1971,
            and the last Prowler was delivered in 1991. Since 1971, the Navy upgraded the
            EA-6B with the Expanded Capability, the Improved Capability (ICAP) I and II,
            and made Block 82, 86, 89, and 89A configuration upgrades. The ICAP III, the
            Multifunctional Information Distribution System Link-16 network, and the Joint
            Mission Planning System programs are the next planned major modifications to
            the EA-6B aircraft.

            ICAP III Program. The ICAP III Program, an Acquisition Category II program,
            will upgrade the software and hardware in the EA-6B aircraft to provide a
            selective-reactive jamming capability in a wider frequency range and a threat
            emitter geo-location capability. The ICAP III Program includes the design,
            development, and testing of a new upgraded tactical jamming subsystem, a
            tactical information subsystem, and a tactical display subsystem. The EA-6B
            aircraft’s performance will be improved when the existing aircraft’s surveillance
            receiver, display and loader, and recorder subsystems are replaced with more
            reliable and accurate subsystems. See Appendix C for a full description of the
            ICAP III Program subsystems that will upgrade the EA-6B aircraft.

1
    An expeditionary squadron is an armed force organized to accomplish a specific objective in a foreign
    country.
2
    Fleet Replacement is Navy squadron that trains pilots to operate EA-6B aircraft.



                                                        1
    In March 1998, the Navy competitively awarded a cost-plus-award-fee contract to
    Northrop Grumman Integrated Systems, Bethpage, New York, for the
    development of the ICAP III. As of June 2004, the development contract price
    was $235 million. In June 2003, the Program Manager awarded Northrop
    Grumman a firm-fixed-price modification to the development contract for low-
    rate initial production of 10 ICAP III system kits for $102 million. The Navy
    plans to acquire 35 ICAP III kits to integrate into 35 EA-6B aircraft at an
    estimated cost of $335 million for research, development, test and evaluation
    funds; $458 million for procurement funds; and $109 million in operations and
    support funds for a total program cost of $902 million.

    Test asset unavailability and hardware and software problems caused the ICAP III
    Program to experience significant schedule delays and breach schedule
    parameters in the acquisition program baseline agreement, which was approved in
    October 2003. In April 2004, the Commander, Operational Test and Evaluation
    Force (COMOPTEVFOR) approved the ICAP III Program to start operational
    testing. Because of the schedule delays, however, the Program Manager was
    unable to obligate and expend the ICAP III procurement funds budgeted for
    FY 2004. In June 2004, the Program Manager was revising the agreement to
    reflect a more realistic program schedule for the full-rate production decision.
    Accordingly, the Assistant Secretary of the Navy (Research, Development, and
    Acquisition) had not yet approved a revised schedule for integrating the ICAP III
    into the initial EA-6B aircraft.

    Within the Naval Air Systems Command, the Program Management Activity-234,
    under the supervision of the Navy Program Executive Officer for Tactical Aircraft
    Programs, manages the ICAP III and the other EA-6B aircraft upgrade programs.
    The Assistant Secretary of the Navy (Research, Development, and Acquisition) is
    the milestone decision authority for all EA-6B aircraft Acquisition Category II
    upgrades, including the ICAP III Program.


Objective
    The audit objective was to evaluate the overall acquisition management of the
    EA-6B ICAP III Program. Specifically, we evaluated whether management was
    cost-effectively readying the program for the production phase of the acquisition
    process. We also evaluated the management control program as it related to the
    audit objective. See Appendix A for a discussion of the scope and methodology
    of the review, the review of the management control program, and prior coverage
    related to the audit objective.




                                        2
                     A. Readiness for Low-Rate Initial
                        Production
                     The Program Manager provided the Assistant Secretary of the Navy
                     (Research, Development, and Acquisition) with incomplete information
                     on the operational assessment of the ICAP III Program that the
                     Commander, Operational Test and Evaluation Force (COMOPTEVFOR)
                     prepared in support of the low-rate initial production decision.
                     Specifically, the Program Manager did not provide the details for the
                     following operational test results:

                         •    The high false emitter display ratio3 substantially reduced overall
                              mission effectiveness by overloading the aircrew’s displays with
                              erroneous symbols and caused significant problems in the proper
                              use of reactive assignments.

                         •    The lack of a fully functional keypad prevented the test aircrew
                              from using the ICAP III weapon system effectively.

                         •    The Tactical EA-6B Mission Planning System erroneously
                              displayed data (lost or frozen data) because of frequent system
                              lockups, which presented major obstacles to effective pre-flight
                              mission planning and post-flight analysis.

                         •    Fifty additional performance deficiencies for the ICAP III systems
                              required correction because they detracted from the overall EA-6B
                              efficiency or operator situational awareness.

                     The Program Manager did not provide the COMOPTEVFOR operational
                     assessment to the Assistant Secretary of the Navy (Research,
                     Development, and Acquisition) as required for Navy program milestone
                     decision meetings because the Program Manager limited his presentation
                     of the COMOPTEVFOR test results to their conclusion that the ICAP III
                     was potentially operationally effective and suitable, the ratings for the
                     critical operational issues, and a listing of the 50 additional deficiencies.
                     The briefing did not describe how the deficiencies affected operational
                     effectiveness and suitability. As a result, the Assistant Secretary of the
                     Navy (Research, Development, and Acquisition) approved the Program
                     Manager’s request in June 2003 to procure 10 ICAP III systems for low-
                     rate initial production, and the Navy increased the risk that it will incur
                     costly retrofit expenses to correct the design deficiencies for those systems
                     at the completion of the dedicated operational test and evaluation phase.




3
    The percentage of threat emitter symbols displayed to the operators that were not a threat signal of
     interest.



                                                         3
Operational Assessment
    To assess the ICAP III system, the COMOPTEVFOR tested two modified EA-6B
    aircraft for a total of 12 test missions and 4 unit-level training flights. In the
    operational assessment, the COMOPTEVFOR reported that the ICAP III met or
    exceeded all performance threshold values with the exception of system
    reliability. For the 22 critical operational test issues, the COMOPTEVFOR rated
    3 issues as high risk and another 9 issues as moderate risk on achieving program
    performance requirements. In summary, the COMOPTEVFOR stated that the
    demonstrated capability of the ICAP III equaled or exceeded the performance
    level of the preceding ICAP II system and that the overall ICAP III system
    performance was low risk. The COMOPTEVFOR recommended that the specific
    performance deficiencies identified in the operational assessment be corrected
    before the start of the dedicated operational test phase. The table lists the critical
    operational effectiveness and suitability issues and the corresponding level of risk
    that the COMOPTEVFOR assigned.



                              Critical Operational Issue Ratings
                                           Unclassified
    Critical Issues- Effectiveness                                     Risk Rating1
    Detection                                                          Red
    Jammer Assignment                                                  Yellow
    Identification                                                     Yellow
    Geo-Location                                                       Yellow
    Crew Vehicle
       Aircrew Factors                                                 Red
                                           2
       Integration of USQ-113 and MATT IDM                             White
    Overall System Performance                                         Green
    Targeting
       High Speed Antiradiation Missile                                White
       Jammer Steering                                                 Green
    Tactics                                                            Green
    Survivability                                                      Green
    Joint Interoperability                                             White
    Mission Planning and Analysis                                      Red
    System Reprogramability                                            Yellow




                                          4
     Critical Issues –Suitability
     Reliability                                                                        Yellow
     Maintainability                                                                    Yellow
     Availability                                                                        Green
     Logistic supportability                                                             White
     Compatibility                                                                       Green
     Interoperability                                                                    White
     Training                                                                            Green
     Human factors                                                                      Yellow
     Safety                                                                             Yellow
     Documentation                                                                      Yellow
     1
     Red = high risk; yellow = medium risk = white risk; green = low risk; white = not evaluated.
     2
     Multimission Advanced Tactical Terminal Improved Data Modem.



Policy for Low-Rate Initial Production Decision
     DoD established policy for translating mission needs and technology
     opportunities that are based on approved mission need statements and
     requirements documents into stable, affordable, and well-managed acquisition
     programs. This transition process involves two decision points: approval to enter
     into low-rate initial production and approval to enter into full-rate production.
     The low-rate initial production decision is critical because it starts the contractor’s
     production line. DoD Instruction 5000.2, “Operation of the Defense Acquisition
     System,” May 12, 2003, establishes mandatory procedures for testing all DoD
     acquisition programs before production decision points. DoD Manual 4245.7-M,
     “Transition from Development to Production,” September 1985, provides
     guidance on minimizing risks associated with transitioning acquisition programs
     from development to production. Secretary of the Navy Instruction 5420.188E,
     “Acquisition Category Program Decision Process,” December 11, 1997,
     establishes Navy policy for making acquisition program decisions.

     DoD Instruction 5000.2. DoD Instruction 5000.2 states that the designated
     milestone decision authority shall base the decision for low-rate initial production
     on acceptable performance in developmental test and evaluation and on an
     operational assessment, acceptable interoperability, and acceptable operational
     supportability.

     DoD Manual 4245.7-M. DoD Manual 4245.7-M identifies risk-reduction
     activities for acquisition managers in design, testing, and production in support of
     each sequential acquisition program milestone. The Manual states that the
     acquisition program’s failure to perform will in one of the design, test, and
     production processes will often result in a failure to do well in all areas and cause
     programs to become high risk. By not accomplishing risk-reduction activities, the
     Manual states that equipment will be deployed later and at a far greater cost than
     originally planned.



                                                5
     Secretary of the Navy Instruction 5420.188E. Secretary of the Navy
     Instruction 5420.188E requires program managers to provide the operational
     assessment report that the COMOPTEVFOR prepares to the Assistant Secretary
     of the Navy (Research, Development, and Acquisition) to support a low-rate
     initial production milestone review for acquisition programs.


Reporting the Operational Assessment Results for the Navy
  Program Decision Meeting
     The Program Manager provided the Assistant Secretary of the Navy (Research,
     Development, and Acquisition) with incomplete information on the operational
     assessment of the ICAP III Program that COMOPTEVFOR prepared in support
     of the low-rate initial production decision. Specifically, the Program Manager did
     not provide the details from the operational assessment on the three high-risk,
     critical operational issues; that is, major deficiencies with ICAP III detection
     capabilities, crew-vehicle interface, and mission planning and analysis. In the
     briefing backup slides for the Navy program decision meeting, the Program
     Manager reported that the operational assessment also identified 50 additional
     deficiencies that detracted from overall system efficiency and operator awareness.

     High-Risk, Critical Operational Issues. An explanation of the three high-risk,
     critical operational issues follows.

             Detection. The COMOPTEVFOR reported that the ICAP III did not
     demonstrate the potential for providing accurate and timely detection and display
     of threat emitters in single and multiple emitter environments and in jamming and
     non-jamming environments. The report stated, although test emitters had been
     detected and the system had demonstrated the ability to rapidly display the
     emitters in jamming and non-jamming environments, the false emitter display
     ratio was exceeding high. The COMOPTEVFOR also stated that in the high false
     emitter display ratio cluttered the system display with erroneous information and
     would cause system operators to increase their workload and decrease their
     situational awareness.

     To assess the system’s detection ability, the COMOPTEVFOR tested the ICAP
     III against 24 threat emitters. The COMOPTEVFOR reported that the ICAP III
     demonstrated a false emitter display ratio of greater than 80 percent for 12 threat
     emitters; a false emitter display ratio of between 50 and 80 percent for 8 threat
     emitters; and a false emitter display ratio of less than 50 percent for 4 threat
     emitters. Further, the COMOPTEVFOR stated that the false emitter display ratio
     had been extreme against one of the 24 threat emitters. In the extreme example,
     the COMOPTEVFOR reported that, during a 1-hour period, 1,002 of 1,012 threat
     emitter symbols displayed to the operators were not associated with the actual
     threat emitter. The COMOPTEVFOR concluded that if the operators’ display
     became flooded with false emitter symbols at that magnitude, operator
     effectiveness against that threat emitter would be severely reduced. Additionally,
     the COMOPTEVFOR reported that, the aircrews that tested the ICAP III
     expressed very low confidence in the authenticity of the threat emitter symbols
     displayed to them during the test missions.


                                          6
       Crew-Vehicle Interface. The COMOPTEVFOR reported that the crew-
vehicle interface capability of the ICAP III did not demonstrate the potential for
supporting aircrew situational awareness and mission accomplishment. To
measure the crew-vehicle interface capability, the COMOPTEVFOR identified
aircrew factors and the need to assess the integration of the USQ-113
Communications Jamming System and the Multi-mission Advanced Tactical
Terminal Improved Data Modem. The COMOPTEVFOR rated the risk of the
crew-vehicle interface capability of the ICAP III as high because the system did
not have a fully functional alphanumeric keyboard, which represented
degradation in capability from what was available in the ICAP II SYSTEM. The
COMOPTEVFOR did not assess the USQ-113 Communications Jamming System
and the Multi-mission Advanced Tactical Terminal Improved Data Modem
because those items had yet to be integrated into the ICAP III aircraft.

        Mission Planning and Analysis. The COMOPTEVFOR reported that
version 7/8 of the Tactical EA-6B Mission Planning System, the current mission
planning system for the ICAP III, did not demonstrate the potential for supporting
the ICAP III mission. The COMOPTEVFOR stated that the major obstacle to
effective mission planning and post-flight mission analysis for the operational
assessment was the instability of the Tactical EA-6b Mission Planning System.
The report documented instances where the Tactical EA-6B Mission Planning
System failed, resulting in a halt to mission planning during the assessment and
causing the operator to redo previously completed work because of lockups or
erroneously displayed or deleted data. Furthermore, the COMOPTEVFOR stated
that the functionality of the Tactical EA-6B Mission Planning System was
inadequate. Specifically, the report stated that the type of information and the
method of entering information were not user friendly. The COMOPTEVFOR
also reported that most mission information produced by the Tactical EA-6B
Mission Planning System was either indecipherable or insufficient for proper
briefing. The report further stated that many of the current threat emitter library
loads on the Tactical EA-6B Mission Planning System did not adequately support
the improved signal identification capabilities of the ICAP III. In conclusion, the
COMOPTEVFOR reported that the excessive number of malfunctions
significantly reduced the operator’s confidence in the system and drastically
reduced the operator’s mission planning effectiveness.

Recommendations from Operational Assessment. The COMOPTEVFOR
recommended that the following three deficiencies related to the high-risk, critical
operational issues be corrected and verified during the dedicated operational test
and evaluation:

           •   Investigate and correct the high false emitter display ratio.

           •   Correct alphanumeric keyboard disfunctionality.

           •   Investigate and correct the unreliable Tactical EA-6B Mission
               Planning System version 7/8.

At the Navy program decision briefing to the Assistant Secretary of the Navy
(Research, Development, and Acquisition), the Program Manager listed the
50 additional deficiencies as having minor to moderate risk on achieving program
performance requirements. Although the 50 additional deficiencies were


                                     7
    identified as not critical to mission accomplishment, the COMOPTEVFOR
    indicated that they should be corrected and verified during the dedicated
    operational test and evaluation phase because they detracted from the overall EA-
    6B efficiency and operator situational awareness. See Appendix D for the
    complete description of the 50 additional deficiencies.


Requirement for Navy Program Decision Meetings
    The Program Manager did not provide the COMOPTEVFOR operational
    assessment report to the Assistant Secretary of the Navy (Research, Development,
    and Acquisition) as required in support of Navy program decision meetings.
    Instead, the EA-6B Program Manager limited his presentation of the
    COMOPTEVFOR test results to their conclusions that the EA-6B ICAP III was
    potentially operational effective and suitable, ratings for the critical operational
    issues, and the backup slides listing the 50 additional deficiencies.

    Navy Program Decision Meeting. In June 2003, the Program Manager briefed
    the Assistant Secretary of the Navy (Research, Development, and Acquisition) on
    the readiness of the ICAP III to enter low-rate initial production. The Program
    Manager stated that the program had met the exit criteria that the Assistant
    Secretary of the Navy (Research, Development, and Acquisition) established for
    entry into the low-rate initial production phase of the acquisition process. The
    Program Manager detailed that the COMOPTEVFOR had determined that the
    ICAP III system was potentially operationally effective and suitable. He also
    stated that the COMOPTEVFOR rated 12 of the 22 critical operational issues for
    effectiveness and suitability at moderate to high risk of achieving the system
    capabilities needed for the EA-6B to accomplish its mission. However, the
    Program Manager did not provide the milestone decision authority with sufficient
    detail on the 12 critical operational issues or descriptions of the 50 additional
    deficiencies to ensure that the Assistant Secretary of the Navy (Research,
    Development, and Acquisition) could make an informed decision on the readiness
    of the ICAP III to enter low-rate initial production and to begin the dedicated
    operational test phase. COMOPTEVFOR representatives were invited, but were
    unable to attend the ICAP III Navy program meeting for making the low-rate
    initial production decision.


Conclusion
    The Assistant Secretary of the Navy (Research, Development, and Acquisition)
    approved the Program Manager’s request in June 2003 to procure 10 ICAP III
    systems for low-rate initial production. As a result, the Navy increased the risk
    that it will incur costly retrofit expenses to correct the design deficiencies for
    those systems at the completion of the dedicated operational test and evaluation
    phase.

    Until the Navy produces the follow-on EA-18G aircraft, the EA-6B is the only
    DoD aircraft that can perform airborne electronic attack operations. Because the


                                         8
    ICAP III system will be the baseline capability for the EA-18G, it is particularly
    important that the ICAP III system be thoroughly tested and can demonstrate the
    satisfaction of operational performance requirements before approval for full-rate
    production. To improve the likelihood that the EA-6B ICAP III will perform
    satisfactorily during the dedicated operational test and evaluation phase, we
    believe that the Assistant Secretary of the Navy (Research, Development, and
    Acquisition) should analyze and satisfactorily resolve the high-risk areas
    identified during developmental testing for the ICAP III, as well as the
    50 additional deficiencies that detracted from overall efficiency or operator
    situational awareness identified during developmental testing before the
    conclusion of the dedicated operational test and evaluation phase.


Management Comments on the Finding and Audit Responses
    Navy Comments. The Deputy Assistant Secretary of the Navy (Air Programs),
    Office of the Assistant Secretary of the Navy (Research, Development, and
    Acquisition) nonconcurred with the finding, stating that the COMOPTEVFOR
    delivered the operational assessment report to the Office of the Assistant
    Secretary of the Navy (Research, Development, and Acquisition) in June 2003.
    Furthermore, the Deputy Assistant Secretary stated that the Program Manager
    addressed details of the operational assessment results and provided backup
    material at the Navy Program Decision Meeting. Specifically, he stated that the
    backup material discussed the four operational mission failures that occurred
    during the operational assessment test and the plans and the status of the
    corrective actions. Additionally, the Deputy Assistant Secretary stated that the
    backup material identified and discussed the corrections for the high and
    moderate suitability risks and identified all minor critical operational issues.

    Audit Response. Based on discussions with a representative from the Office of
    the Assistant Secretary of the Navy (Research, Development, and Acquisition),
    we acknowledge that the COMOPTEVFOR delivered a copy of the assessment
    report to the Office of the Assistant Secretary. However, the representative stated
    that the Assistant Secretary did not see the operational assessment report before
    the Navy Program Decision Meeting, nor did the Program Manager provide the
    Assistant Secretary with a copy of the report at the meeting. As stated in the
    report, the briefing charts and backup material that the ICAP III Program
    Manager presented at the Navy Program Decision Meeting did not provide
    evidence of the extent of the operational effectiveness and suitability
    shortcomings identified in the operational assessment report that were discussed.
    If the milestone decision authority had been fully aware of the extent of EA-6B
    ICAP III operational performance problems identified in the operational
    assessment report, he may not have made the decision to approve low-rate initial
    production. Had the Program Manager provided the report at the Navy Program
    Decision Meeting as required, there would be no doubt as to whether the
    milestone decision authority was fully informed of the extent of the operational
    effectiveness and suitability shortcomings of the EA-6B ICAP III when making
    the low-rate initial production decision.




                                         9
Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend that the Assistant Secretary of the Navy (Research,
    Development, and Acquisition) obtain the Commander, Operational Test
    and Evaluation Force’s operational assessment for the EA-6B Improved
    Capability III and not approve full-rate production until the Commander,
    Operational Test and Evaluation Force determines the satisfactory
    resolution of the 22 critical operational issues.

    Navy Comments. The Deputy Assistant Secretary of the Navy (Air Programs),
    responding for the Assistant Secretary of the Navy (Research, Development, and
    Acquisition), nonconcurred, stating that as part of the preparation for the
    dedicated operational test and evaluation, the EA-6B ICAP III Program Office
    addressed each operational assessment item to ensure that improvements, where
    warranted, were included in the product submitted to COMOPTEVFOR for
    testing. He further stated that the Assistant Secretary of the Navy (Research,
    Development, and Acquisition) established in the acquisition decision
    memorandum the requirement that COMOPTEVFOR determine that the EA-6B
    ICAP III Program was operationally effective and suitable before the full-rate
    production decision would be made. The Deputy Assistant Secretary also stated
    that the results of the dedicated operational test and evaluation should take
    precedence over the results contained in the operational assessment report in
    making the full-rate production decision.

    Audit Response. The Deputy Assistant Secretary of the Navy (Air Programs)
    comments were responsive to the intent of Recommendation A.1. The
    Commander, Operational Test and Evaluation Force will revisit and determine the
    satisfactory resolution of the 22 critical operational issues as part of the dedicated
    operational test and evaluation that is planned before the full-rate production
    decision. We agree that the results of the dedicated operational test and
    evaluation should take precedence over the results contained in the operational
    assessment report. The satisfactory resolution of the 22 critical operational
    issues, however, should be key in the decision of the Assistant Secretary of the
    Navy (Research, Development, and Acquisition) to allow the EA-6B ICAP III
    Program to proceed into full-rate production.

    A.2. We recommend that the Program Manager for the EA-6B analyze and
    identify fixes for the 50 additional deficiencies identified by the Commander,
    Operational Test and Evaluation Force in the operational assessment to
    increase the likelihood that the ICAP III will perform satisfactorily before
    concluding the dedicated operational test and evaluation phase of the
    acquisition process.

    Navy Comments. The Deputy Assistant Secretary of the Navy (Air Programs)
    nonconcurred, stating that the Program Manager for the EA-6B was already
    addressing the major and minor deficiencies identified in operational assessment
    report. He stated that the Program Manager established a process to resolve the
    50 areas of risk cited in the operational assessment report and to prioritize their
    resolution. The Deputy Assistant Secretary stated that resolution ranged from


                                         10
immediate action to removing the requirement in a future requirement update.
Additionally, he stated that the COMPOPTEVFOR identifies and prioritizes
deficiencies but the program sponsor provides funding to fix the deficiencies.

Audit Response. The Deputy Assistant Secretary of the Navy (Air Programs)
comments were responsive to the intent of Recommendation A.2.




                                    11
           B. An Interim Authority to Operate
              Improved Capability III Information
              Systems
           In May 2003, the Designated Approving Authority for the Naval Air
           Systems Command issued the Program Manager an Interim Authority to
           Operate (IATO) the ICAP III information system without requiring the
           Program Manager for the EA-6B aircraft to first complete the verification
           and validation phases of the Department of Defense Information
           Technology Security Certification and Accreditation Process (DITSCAP),
           as required. As a result, the Program Manager began operational testing
           of a system that may not satisfy system information assurance
           requirements.


Policy and Guidance for Certifying and Accrediting DoD
  Information Systems
    DoD established policy and guidance to manage the certification and
    accreditation process for information systems. DoD Instruction 5200.40,
    “Department of Defense Information Technology Security Certification and
    Accreditation Process (DITSCAP),” December 30, 1997, and DoD Manual
    8510.1-M, “Department of Defense Information Technology and Security
    Certification and Accreditation Process (DITSCAP) Application Manual,” July
    2000, establish the process for accrediting DoD computers, systems, and
    networks.

    DoD Instruction 5200.40. DoD Instruction 5200.40 implements policy, assigns
    responsibilities, and prescribes procedures for certifying and accrediting
    information technology in DoD systems. The Instruction identifies four phases
    for the DITSCAP to certify that the information technology system meets the
    accreditation requirements and that the system continues to meet those
    requirements throughout the system’s life cycle. A description of the four-phase
    DITSCAP follows.

               •   Definition – uses collected information to determine the
                   certification level of the system, which, in turn, determines the
                   level of effort required.

               •   Verification – includes activities to verify system compliance with
                   security requirements and to evaluate vulnerabilities.

               •   Validation – ensures that the fully integrated system operates in a
                   specified computing environment with an acceptable level of risk.

               •   Post Accreditation – includes activities to monitor system
                   management and operation to ensure that an acceptable level of
                   residual risk is preserved.


                                         12
DoD Manual 8510.1-M. DoD Manual 8510.1-M defines information assurance
as information operations that protect and defend information and information
systems by ensuring their availability, integrity, authentication, confidentiality,
and nonrepudiation. Information operations include providing for the restoration
of information systems by incorporating protection, detection, and reaction
capabilities. Further, the Manual provides guidance for program managers of
information systems on the implementation of the DITSCAP and defines the
responsibilities of the Designated Approving Authority, the Certification
Authority, and their certification and accreditation activities.

        Designated Approving Authority. The Designated Approving Authority
is the official with the authority and ability to evaluate the mission, business case,
and budgetary needs for the system while accounting for potential security risks.
The Designated Approving Authority determines the acceptable level of residual
risk and approves the system for operation. The Designated Approving Authority
for the EA-6B ICAP III Program is a representative from the Information
Assurance Office at the Naval Air Systems Command.

       Certification Authority. The Certification Authority provides the
technical expertise to conduct the certification of the system throughout the
system’s life-cycle based on the security requirements documented in the System
Security Authorization Agreement. The Certification Authority identifies and
assesses the risks associated with operating the system and makes an accreditation
recommendation to the Designated Approving Authority. The Certification
Authority for the EA-6B ICAP III Program is also a representative from the
Information Assurance Office at the Naval Air Systems Command.

        Requirements Described in System Security Authorization
Agreement. DoD Manual 8510.1-M lists the requirements that should be
described in a System Security Authorization Agreement (the Agreement). The
DoD Manual states that the Agreement, which is a formal agreement between the
Designated Approving Authority, Certification Authority, user representative, and
the Program Manager, should be used to guide and document the results of the
certification and accreditation process. The Manual further states that the
objective of the Agreement is to establish an evolving, yet binding, agreement on
the level of security needed before beginning system development. The DoD
Manual also states that the Certification Authority must analyze the system and
determine the degree of confidentiality, integrity, availability, and accountability
required for the system. Based on this analysis, the Certification Authority
recommends a certification level to which the DITSCAP certification tasks must
be performed and documents this certification level in the Agreement. Once the
DITSCAP process is complete, the DoD Manual states that the Agreement
becomes the baseline security configuration document.

        Interim Authority to Operate. DoD Manual 8510.1-M also establishes
guidance for issuing an IATO. The DoD Manual specifies the need to identify a
Certification Authority and a Designated Approving Authority for each
information system as the individuals that would oversee the DITSCAP and
process information based on preliminary results of a system security evaluation.
The DoD Manual states that if an information system has not met the
requirements stated in the Agreement, but that mission-critical needs require the
system to become operational, the Certification Authority may recommend that


                                     13
    the Designated Approving Authority issue an IATO after the validation phase of
    the DITSCAP with the understanding that the noted deficiencies will be corrected
    within a set timeframe. The DoD Manual states that the deficiencies must be
    noted in the Agreement and that the Certification Authority, Designated
    Approving Authority, Program Manager, and user representative must agree to
    the proposed solutions, schedule, security actions, milestones, and maximum
    length of time for the IATO.

ICAP III Program Information Systems
    The ICAP III Program integrates existing EA-6B aircraft systems and system
    upgrades to accomplish selective-reactive jamming and threat emitter
    geo-location capabilities that will enable the future EA-6B aircraft to more
    effectively perform its airborne electronic attack operations. The major
    information system upgrades for the EA-6B aircraft include the Tactical Jamming
    Subsystem Receiver, the Multifunctional Information Distribution System to
    support the Link-16 network, the Tactical Display Subsystem, and the Data
    Storage Memory Unit.

Issuing an IATO For the ICAP III Program

    In May 2003, the Designated Approving Authority for the Naval Air Systems
    Command issued the Program Manager for the EA-6B aircraft an IATO before
    the Certification Authority verified that the ICAP III information system security
    requirements were complete.

    Completeness of System Security Authorization Agreement. DoD
    Manual 8510.1-M states that the Certification Authority should identify the
    certification level needed for DITSCAP certification tasks in the ICAP III
    Program Agreement. The ICAP III Certification Authority, however, did not
    document the certification level in the draft Agreement. Without identifying the
    certification level and the level of effort needed to complete the DITSCAP
    certification tasks, the Certification Authority did not have information needed to
    effectively perform the verification and validation phases for the ICAP III
    Program.

    Status of the ICAP III Program DITSCAP. In May 2003, the Program
    Manager for the EA-6B aircraft issued an Information Assurance Strategy for the
    ICAP III Program. The Information Assurance Strategy stated that DITSCAP
    certification procedures in DoD Instruction 5200.40 and DoD Manual 8510.1-M
    were being applied for the ICAP III Program, that the ICAP III Program was in
    the definition phase of the DITSCAP, and that the Program Manager had
    provided the initial information needed to complete the definition phase and
    would provide the additional information needed to complete the Agreement for
    final accreditation of the ICAP III information system. As of June 2004, a
    representative at the Naval Air Systems Command stated that the program was
    still in the definition phase of the DITSCAP, and that the Certification Authority
    was reviewing the applicable requirements for the system security baseline. The


                                        14
    representative stated that once the review was complete, the Designated
    Approving Authority would perform system verification and validation of those
    baseline requirements.


Requirements for Issuing an IATO
    The Designated Approving Authority did not require the Program Manager for
    the EA-6B aircraft to complete the verification and validation phases of the
    DITSCAP as required before issuing the IATO. The IATO was issued during the
    definition phase of the DITSCAP instead of after the validation phase of the
    DITSCAP as required by DoD Manual 8510.1-M. A representative at the Naval
    Air Systems Command stated that the recommendation to issue the IATO for the
    ICAP III Program was based on the Certification Authority’s analysis of the draft
    Agreement, a review of the system architecture, and the identification of any
    associated risks. The representative also stated that the IATO was issued to
    prevent delay of the scheduled testing. Before issuing the IATO for the ICAP III
    information system, the Designated Approving Authority should have required
    the Program Manager to complete the verification and validation phases of the
    DITSCAP to ensure system compliance with security requirements and to
    validate that the fully integrated system could operate in a specified computing
    environment with an acceptable level of risk.


Conclusion
    As a result of the Program Manager’s obtaining the IATO, the ICAP III Program
    entered into operational testing without the assurance that the system could satisfy
    system information assurance requirements. To ensure that disruption to mission
    operations from information security risks have been mitigated, system
    information assurance requirements must be satisfied so that an appropriate level
    of confidentiality, integrity, availability, and authentication is protected for the
    ICAP III information systems.

Management Comments on the Finding and Audit Response
    Navy Comments. The Deputy Assistant Secretary of the Navy (Air Programs),
    responding for the Certification Authority for the EA-6B Improved Capability III
    Program, Naval Air Systems Command, partially concurred with the finding,
    stating that the Naval Air Systems Command Designated Approving Authority
    and Certification Authority reviewed the IATO and the process followed by the
    Information Assurance Program Officer in issuing this document. Although he
    agreed that the DITSCAP typically requires the review and issuance of the IATO
    after completion of the verification and validation phase of a program, he stated
    that interpretation of DITSCAP requirements did not accurately reflect the
    practical application of an information assurance program. The Deputy Assistant
    Secretary stated that the Information Assurance Program Officer met with the
    Program Manager to address overall information assurance requirements, to
    include testing the ICAP III variant on a test platform. He also stated that the


                                        15
    Information Assurance Program Office assessed the security architecture and the
    design and determined there was minimal risk of unauthorized disclosure,
    modification, or availability of National Security Information, and that if an
    unacceptable level of risk had been determined during the review process, the
    Naval Air Systems Command Designated Approving Authority would not have
    authorized the interim authority to operate for the test and evaluation period.

    Audit Response. We agree that the Naval Air Systems Command Designated
    Approving Authority and Certification Authority reviewed the IATO and the
    process following its issuance. However, in not completing the verification and
    validation phases of the DITSCAP for the EA-6B ICAP III Program as required
    to ensure compliance with security requirements and to validate that the fully
    integrated system could operate in a specified computing environment with an
    acceptable level of risk, the Program Manager could not provide assurance to
    COMOPTEVFOR that the EA-6B ICAP III Program could satisfy information
    assurance requirements before operational testing.

Recommendations, Management Comments, and Audit
  Responses
    B.1. We recommend that the Certification Authority for the EA-6B
    Improved Capability III Program, Naval Air Systems Command:
                a. Complete all definition, verification, and validation
    requirements to comply with the DoD Information Technology Security
    Certification and Accreditation Process.
                b. Document the certification procedures and test results in the
    EA-6B Improved Capability III System Security Authorization Agreement.
                c. Use the results from completing the DoD Information
    Technology Security Certification and Accreditation Process to recommend
    to the Designated Approving Authority for the EA-6B Improved Capability
    III whether to continue granting the EA-6B Program Manager an Interim
    Authority to Operate.
    B.2. We recommend that the Designated Approving Authority for the EA-
    6B Improved Capability III Program, Naval Air Systems Command base the
    decision to continue granting the EA-6B Program Manager an Interim
    Authority to Operate on the recommendation of the Certification Authority
    for the EA-6B Improved Capability III Program.
    Navy Comments. The Deputy Assistant Secretary of the Navy (Air Programs),
    responding for the Certification Authority and the Designated Approving
    Authority for the EA-6B Improved Capability III Program, Naval Air Systems
    Command, concurred with the two recommendations and stated that the
    Certification Authority planned to accomplish the actions listed in
    Recommendation B.1. and would make his recommendations on whether to
    continue granting the IATO to the Designated Approving Authority.

    Audit Response. The Deputy Assistant Secretary’s comments were responsive to
    the two recommendations.


                                       16
            C. Use of Failure Data for the Improved
               Capability III Program Hardware
            The subcontractor did not submit, through the prime contractor for the
            ICAP III Tactical Jamming System Receiver, updated reliability
            prediction data needed to perform a cost-benefit analysis to determine the
            best maintenance and logistical support strategy for the receiver. This
            condition occurred because the Program Manager did not direct the prime
            contractor to update reliability predictions after analyzing and resolving
            all hardware failures identified during developmental testing or to retain
            documentation of corrective actions taken to reduce the frequency of
            hardware failures. As a result, the Program Manager is not able to
            accurately predict the expected reliability of the Tactical Jamming System
            Receiver and may incur higher than expected costs to maintain and
            logistically support the receiver when the ICAP III Program becomes
            operational.


System Reliability Criteria and Guidance
     The Interim Defense Acquisition Guidebook provides program managers with
     guidance to use to sustain system reliability. DoD Manual 4245.7-M, “Transition
     from Development to Production,” September 1985, provides program managers
     with additional guidance for reporting and analyzing data on system failure.

     Interim Defense Acquisition Guidebook. The Interim Defense Acquisition
     Guidebook states that effective sustainment of weapon systems begins with the
     design and development of reliable and maintainable systems through the
     continuous application of a robust systems engineering methodology. The
     Guidebook also states that program managers shall conduct supportability
     analyses to achieve the most cost-effective support strategy and to form the basis
     for logistics support planning.

     DoD Manual 4245.7-M. DoD Manual 4245.7-M states that all system failures
     should be analyzed in sufficient depth to identify the cause of failure and the
     necessary corrective actions; that criticality of failures should be prioritized in
     accordance with their individual impact on operational performance; and, that a
     central technical organization should be responsible for implementing and
     monitoring the failure reporting system.


ICAP III System Engineering Management Plan
     To implement the DoD guidance, in February 1998, the Program Manager for the
     EA-6B aircraft directed Northrop Grumman to develop and use a Systems
     Engineering Management Plan for the ICAP III Program reliability,
     maintainability, and failure analysis. In September 1998, the contractor
     completed the ICAP III Systems Engineering Management Plan, which states that


                                          17
     reliability predictions shall be calculated based on anticipated system failure rates.
     The plan indicates that predictions calculated in the failure modes and effects and
     criticality analysis document shall be updated when a review of the failures
     identified during testing had been analyzed.


Contract System Reliability Requirements
     In March 1998, the Program Manager awarded a contract to Northrop Grumman
     for the design and development of the ICAP III. In the contract, the Program
     Manager required Northrop Grumman to ensure that system failure reporting
     commenced in sufficient time to provide failure-reporting data to support the
     operational assessment and the dedicated developmental and operational tests.
     Additionally, the Program Manager required Northrop Grumman to establish a
     logbook for each ICAP III subsystem to record the failures, analysis, and
     corrective actions taken. Further, to better identify the sustainment requirements,
     the Program Manager required the contractor to perform system failure analysis
     and subsequently report system reliability predictions in the system failure modes
     and effects and criticality analysis document.


Subcontractor Submission of Failure Analysis Data
     The Program Manager did not require the subcontractor to submit, through the
     prime contractor for the ICAP III Tactical Jamming System Receiver, updated
     reliability prediction data needed to perform a cost-benefit analysis study to
     determine whether it was more effective for the Navy or for the subcontractor to
     establish the facilities to provide supply support and to repair the receiver system.

     The subcontractor for the ICAP III Tactical Jamming System Receiver did
     maintain a system failure logbook for developmental systems one, two, and three.
     As of November 2003, the logbook contained 846 entries; 55 failures were not
     closed and 791 failures were closed. In maintaining the logbook entries,
     however, the subcontractor did not fully comply with requirements in the
     development contract. Specifically, the subcontractor did not always prioritize
     the criticality of the failures or document what corrective actions were taken to
     close the failures in the logbook. Further, the subcontractor did not retain detailed
     documentation supporting the reason for closure or nonclosure of listed failures.
     The subcontractor stated that when corrective action was needed, engineering
     changes were made to the design and hardware, but corrective actions taken on
     the failures were not documented in the logbook. The subcontractor also stated
     that an integrated process team of program office and contractor staff reviewed
     the failure reports and informally decided on the appropriate corrective actions.

     In June 2001, the contractor issued the final failure modes and effects and
     criticality analysis document that reported the subcontractor’s efforts to document
     the 263 system failures. Subsequently, the subcontractor continued to track,
     analyze, and report on failures identified on the three receivers’ developmental



                                          18
    systems. Without direction from the EA-6B Program Office, through the prime
    contractor, the subcontractor did not update the reliability prediction data for the
    Tactical Jamming System Receiver after June 2001.

    Cost-Benefit Analysis for the ICAP III Program. As a part of the future
    acquisition support strategy for the ICAP III, the Program Manager is considering
    whether it is more cost-effective to use the performance-based logistics support
    services offered by Northrop Grumman or the existing Navy supply and
    maintenance facilities. The Interim Defense Acquisition Guidebook emphasizes
    that program managers should conduct supportability analyses to determine the
    most cost-effective support strategy. In the ICAP III Systems Engineering
    Management Plan, the Program Manager directed Northrop Grumman to use the
    failure data collected during development testing to prepare the failure analysis
    and reliability prediction documentation that could be used to complete a cost-
    benefit analysis. Because the Program Manager did not require the contractor and
    the Tactical Jamming System Receiver subcontractor to update the documentation
    based on completed failure data, an up-to-date, cost-benefit analysis was not
    available to determine the most cost-effective acquisition support strategy for the
    Tactical Jamming System Receiver.


Conclusion
    As a result of not being able to accurately predict the expected reliability of the
    Tactical Jamming System Receiver, the Program Manager may incur higher than
    expected costs to maintain and logistically support the receiver when the ICAP III
    Program becomes operational. Updating reliability prediction data on the
    Tactical Jamming System Receiver would enable the Program Manager to better
    determine whether it is more cost-effective to use the subcontractor for
    performance-based logistics support or to use existing Navy supply and
    maintenance facilities to provide supply support and to repair the receiver system.
    In addition, updating the reliability prediction data would enable the Program
    Manager to better estimate the life-cycle costs for the ICAP III Program.


Management Comments on the Finding and Audit Responses
    Navy Comments. The Deputy Assistant Secretary of the Navy (Air Programs),
    responding for the Program Manager for the EA-6B, nonconcurred with the
    finding, stating that the contractor’s reliability and maintainability program
    followed during the system development phase of the acquisition process formed
    the basis for follow-on phases of the program and was established to identify
    failures during the earliest phase in the design and to implement the corrective
    action at the earliest possible time and at the least cost to the program. He stated
    that the Program Manager actively pursued a policy that ensured that the
    supportability and testability of all ICAP III components would be traceable to
    failure and damage modes as predicted, and that every corrective action would be
    accurately documented through feedback to the design agents. The Deputy
    Assistant Secretary also stated that the data requested by the audit team covered a
    time period of more than 2 years and needed to be formatted into a useable report.


                                         19
    He stated that, by mutual consent, the audit team and the ICAP III Integrated
    Process Team decided against producing such a report because it would be
    outside of the scope of existing documentation. The Deputy Assistant Secretary
    stated that the Reliability Engineer met with the audit team in May 2004 and
    provided examples from the Northrop Grumman failure reporting and corrective
    action system database, the reliability maintainability and review board database,
    and meeting minutes.

    Audit Response. The Program Manager did establish a reliability and
    maintainability program to identify failures during the earliest phase in the design
    process and to implement the corrective action as early as possible. However, our
    review of failure logbook documentation for the Tactical Jamming System
    Receiver indicated that the subcontractor did not execute the reliability and
    maintainability program as required in the development contract statement of
    work and the ICAP III Systems Engineering Management Plan. As stated in the
    draft report, we attempted to review a judgment sample of the failure anomalies
    listed in the receiver subcontractor failure logbook at the subcontractor facility
    and were unable to trace the line items to a documented analysis to show
    subcontractor actions taken to close each failure entry.


Recommendations, Management Comments, and Audit
  Response
    C. We recommend that the Program Manager for the EA-6B Program:

              1. Require Northrop Grumman Electronic Systems, Baltimore,
    Maryland, through the prime contractor, to update the failure report
    logbook to prioritize open system failures for the Tactical Jamming System
    Receiver and to cross-reference corrective actions taken to close each failure
    entry.

    Navy Comments. The Deputy Assistant Secretary of the Navy (Air Programs),
    responding for the Program Manager for the EA-6B, nonconcurred, stating that
    the failure reporting and corrective action system provides the means to document
    and improve the reliability of the design through failure recording, analysis, and,
    if applicable, corrective design actions. He also stated that the failure reporting
    and the corrective action system reporting do not begin until the system reaches
    design maturity, and that the Reliability and Maintainability Integrated Process
    Team determined that the failure reporting and corrective action system reporting
    would begin when the ICAP III system was sufficiently mature. The Deputy
    Assistant Secretary further stated that logbook entry anomalies may or may not be
    in the failure reporting and corrective action system database, depending on the
    development phase in which the anomalies occurred. Additionally, he stated that
    the logbooks were an internal Northrop Grumman practice and not a contract
    requirement. The Deputy Assistant Secretary stated that the purpose of the failure
    logbook was to record anomalies that occurred during each shift, but that all




                                         20
anomalies were not recorded in the failure reporting and corrective action system
database. Finally, he stated that if the anomalies were not placed into the failure
database, they were described as development notes.

Audit Response. The Deputy Assistant Secretary’s comments were not
responsive. Furthermore, the Deputy Assistant Secretary’s comment on the start
of failure reporting is not consistent with provisions in DoD Manual 4245.7
which recommends that all system failures be analyzed, prioritized, and
monitored. In this regard, the contract statement of work did require Northrop
Grumman to perform analysis on its failures, in a logbook, in sufficient time to
support the operational assessment and the dedicated development and
operational tests. As stated in the draft report, the subcontractor did not retain
documentation supporting the reason for closure or nonclosure of listed failures in
the failure report logbook as required. Accordingly, we request that the Deputy
Assistant Secretary reconsider his position on the recommendation to require
Northrop Grumman Electronic Systems, Baltimore, Maryland, through the prime
contractor, to update the failure report logbook to prioritize open system failures
for the Tactical Jamming System Receiver and to cross-reference corrective
actions taken to close each failure entry.

           2. Obtain from Northrop Grumman Electronic Systems,
Baltimore, Maryland, through the prime contractor, an updated failure
modes and effects and criticality analysis document that includes an analysis
of corrective actions taken to resolve system failures that occurred after June
2001.

Navy Comments. The Deputy Assistant Secretary of the Navy (Air Programs)
nonconcurred, stating that the Reliability Prediction and the FMECA (Failure
Mode Effects and Criticality Analysis) are tools used to assess the proposed
design for compliance with requirements, supportability, and testability. He also
stated that the predictions are design assessment tools used in the absence of
actual failure data, and that once the design is completed and solidified, there is
little payoff in performing updates unless major design changes occur. The
Deputy Assistant Secretary further stated that once actual failure data have been
obtained, the failure predictions become obsolete and the FMECA should not be
updated.

Audit Response. The Deputy Assistant Secretary of the Navy (Air Programs)
comments were not responsive. As stated in the draft report, the ICAP III System
Engineering Management Plan addressed the need for reliability predictions and
the failure modes and effects and criticality analysis document. The plan required
that reliability predictions be calculated based on anticipated ICAP III system
failures and that assumptions made in the ICAP III failure modes and effects and
criticality analysis document be updated when a review of the failures identified
during testing had been analyzed. Because the design for the EA-6B ICAP III
Program has not stabilized, updating the FMECA, as called for in the System
Engineering Management Plan, would provide the Program Manager for the
EA-6B with the information he needs to determine whether it is more cost-
effective to use the subcontractor’s logistics support or to use existing Navy
supply and maintenance facilities to provide support and to repair the receiver
system. Accordingly, we request that the Deputy Assistant Secretary reconsider
his position on the recommendation to obtain from Northrop Grumman Electronic


                                     21
Systems, Baltimore, Maryland, through the prime contractor, an updated failure
modes and effects and criticality analysis document that includes an analysis of
corrective actions taken to resolve system failures that occurred after June 2001.

           3. Perform a cost-benefit analysis after implementing
Recommendations C.1. and C.2. to determine the most cost-effective
acquisition support strategy for the Tactical Jamming System Receiver.

Navy Comments. The Deputy Assistant Secretary of the Navy (Air Programs)
nonconcurred, stating that the business case analysis to determine the acquisition
support strategy for the Tactical Jamming System Receiver was being performed
by the Navy Inventory Control Point, which is an independent program office that
is not under the control of the Program Manager for the EA-6B. He also stated
the ICAP III Integrated Logistic Support Integrated Process Team provided the
Navy Inventory Control Point with the latest reliability predictions for use in the
business case analysis and that the team was revising those predictions based on
the results from the dedicated technical and operational testing evaluations. The
Deputy Assistant Secretary also stated that because the test data sample size was
not yet significant enough to use in place of the latest reliability predictions, the
predicted reliability would be used to forecast the support requirements for the
Tactical Jamming System Receiver.

Audit Response. The Deputy Assistant Secretary’s comments were responsive to
the intent of the recommendation. A better prediction of the reliability of the
Tactical Jamming System Receiver should result from the ICAP III Integrated
Logistics Support Process Team’s revising earlier reliability predictions for the
Tactical Jamming System Receiver with reliability data from the dedicated
technical and operational testing to achieve results similar to the action
recommended.




                                     22
Appendix A. Scope and Methodology
   We evaluated whether the EA-6B Program Manager was cost-effectively
   readying the ICAP III Program for the production phase of the acquisition
   process. Consequently, we focused the review on the areas of test and evaluation,
   information systems security, and system failure reporting. We performed this
   audit from September 2003 through June 2004 in accordance with generally
   accepted government auditing standards.

   We reviewed documentation dated from July 1997 through December 2003,
   which we obtained from the Naval Air Systems Command, Program Management
   Activity-234, Patuxent River, Maryland; Northrop Grumman Integrated Systems,
   Bethpage, New York; Commander, Operational Test and Evaluation Force,
   Norfolk, Virginia; Naval Air Warfare Center Weapons Division, Point Mugu,
   California; and Northrop Grumman Electronic Systems, Baltimore, Maryland.

   To accomplish the audit objectives, we took the following steps:

      •   We reviewed DoD Instruction 5000.2, “Operation of the Defense
          Acquisition System,” May 12, 2003, and Secretary of the Navy
          Instruction 5420.188E, “Acquisition Category Program Decision Process,”
          December 11, 1997, to determine whether the EA-6B Program Manager
          had provided complete information as required by DoD and Navy policy
          to the Assistant Secretary of the Navy (Research, Development, and
          Acquisition) on the operational assessment for the ICAP III Program
          prepared by the Commander, Operational Test and Evaluation Force. To
          make the determination, we reviewed the operational assessment and
          interviewed COMOPTEVFOR representatives regarding the operational
          assessment test results. We also reviewed the Navy program decision
          briefing used by the milestone decision authority to make the low-rate
          initial production decision.

      •   We reviewed DoD Instructions 5200.40, “Department of Defense
          Information Technology Security Certification and Accreditation
          Process,” December 30, 1997, and DoD Manual 8510.1-M, “Department
          of Defense Information Technology and Security Certification and
          Accreditation Process Application Manual,” July 2000, to determine
          whether the Certification Authority ensured that system security
          verification tasks as required by DoD policy had been completed for the
          ICAP III Program and whether the Designated Approving Authority
          ensured that the required validation tasks were completed before issuance
          of the IATO. In addition, we determined whether the Program Manager
          had fully completed the DITSCAP to provide decision makers with full
          assurance that the ICAP III information systems will function correctly
          and meet performance requirements.

      •   We reviewed the Interim Defense Acquisition Guidebook and DoD
          Manual 4245.7-M, “Transition from Development to Production,”
          September 1985, to determine whether the Program Manager followed
          established policies and guidance when he provided Northrop Grumman
          direction to perform reliability and maintainability failure analysis for the


                                        23
           Tactical Jamming System Receiver. We reviewed and analyzed the
           composite list of open Tactical Jamming System Receiver trouble reports,
           the Systems Engineering Management Plan, the failure modes and effects
           and criticality analysis document, and subcontractor submission of failure
           analysis data in the failure report logbook to determine corrective actions
           taken to reduce future hardware failures. In addition, we interviewed
           representatives from Northrop Grumman Integrated Systems and Northrop
           Grumman Electronic Systems.

    During the review, the Program Manager’s representatives did not respond timely
    to the audit team’s repeated requests for documentation to support the life-cycle
    cost estimate that the Program Manager reported in the October 2003 acquisition
    program baseline agreement. As a result, the audit team prepared a potential
    finding with recommendations to ensure that the Program Manager documented
    his future life-cycle cost estimates. The audit team presented this potential issue
    in a discussion draft report to the Program Manager’s representatives in
    March 2004. In May 2004, the representatives presented the audit team with the
    documentation that supported the October 2003 acquisition program baseline
    agreement. In future audit reviews, the Program Manager should ensure that his
    representatives respond more timely to audit requests for documentation.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Use of Technical Assistance. A computer engineer from the Technical
    Assessment Division, Office of the Assistant Inspector General for Auditing of
    the Department of Defense participated in the review of the ICAP III Program.
    Specifically, the computer engineer evaluated the information assurance process
    and the level of software failures that required alternative system solutions.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the DoD Weapons System Acquisition high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provide reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. In accordance
    with DoD policy, acquisition managers are to use program cost, schedule, and
    performance parameters as control objectives to implement the requirements of
    DoD Directive 5010.38. Accordingly, we limited our review to management
    controls directly related to areas of test and evaluation, information assurance,
    and design failure reviews for the ICAP III Program. We also assessed
    management’s self-evaluation of those controls.


                                        24
      Adequacy of Management Controls. We identified management control
      weaknesses, as defined by DoD Instruction 5010.40, relating to reporting of test
      and evaluation results, information assurance, and system failure reviews.
      Specifically, the Program Manager did not provide the COMOPTEVFOR
      operational assessment to the milestone decision authority as required for the
      Navy Program Decision Meeting or fully verify that analysis and corrective
      action had been performed on hardware failures. In addition, the Designated
      Approving Authority for the Naval Air Systems Command did not follow
      procedures for issuing the Program Manager an IATO. Recommendations A.1.,
      A.2., B.1., B.2., C.1., and C.2., if implemented, will improve the overall
      management of the ICAP III Program. A copy of this report will be provided to
      the senior official responsible for management controls in the Department of the
      Navy.

      Adequacy of Management’s Self-Evaluation. The Program Executive Officer
      for Tactical Aircraft Programs performed annual reviews of the ICAP III
      Program’s assessable units to satisfy the management control requirements. The
      Program Executive Officer used executive acquisition review boards, program
      management reviews, readiness reviews, quality assessments, financial system
      reviews, audits, independent evaluations, inspections, internal reviews,
      investigations and consulting reviews to evaluate the assessable units for the
      program. The Program Executive Officer based his annual statement of assurance
      on results noted during the reviews of the assessable units. However, in the
      self-evaluations, the Program Executive Officer did not identify the specific
      management control weaknesses because the self-evaluations did not review those
      specific areas as part of the assessable units.


Prior Coverage
      During the last 5 years, the General Accountability Office (GAO) has issued four
      reports that discuss the EA-6B Prowler aircraft and its role in airborne electronic
      attack needed for suppression of enemy air defenses. Unrestricted GAO reports
      can be accessed over the Internet at http://www.gao.gov.

GAO
      GAO Report No. GAO-04-112, “Military Readiness: DoD Needs to Reassess
      Program Strategy, Funding Priorities, and Risks for Selected Equipment,”
      December 19, 2003

      GAO Report No. GAO-03-51, “Electronic Warfare: Comprehensive Strategy
      Still Needed for Suppressing Enemy Air Defenses,” November 25, 2002

      GAO Report No. GAO-01-28, “Electronic Warfare: Comprehensive Strategy
      Needed for Suppressing Enemy Air Defenses,” January 3, 2001

      GAO Report No. GAO-00-164, “Contingency Operations: Providing Critical
      Capabilities Poses Challenges,” July 6, 2000



                                          25
Appendix B. Other Matters of Interest
     During the audit, we noted a matter of interest concerning test deficiencies in the
     ICAP III software.


Test Deficiencies in ICAP III Software
     In March 2003, the Program Manager released build three of the ICAP III
     software to the Naval Air Systems Command Technical Assurance Board for an
     independent technical evaluation. Concurrently, he completed the development
     of build four and readied it for formal qualification testing. During the integration
     test processes for the two builds, the program software team identified 303
     priority three software deficiencies. As defined in Military Standard 498,
     “Software Development and Documentation,” December 5, 1994, priority three
     software deficiencies are rated as manageable, provided that the software
     development team can identify alternative solutions.

     Through the Software Development Plan, the Program Manager established a
     joint Government and contractor software integrated process team to manage the
     integrated software testing at the Naval Air Warfare Center Weapons Division,
     Point Mugu, California. The EA-6B Program Manager is relying on the
     program’s software integrated process team to monitor ICAP III software
     development testing and to track and resolve deficiencies noted with builds three
     and four. In November 2003, the Government software integrated process team
     leader stated that an analysis of the 303 software deficiencies should be
     completed to determine the effect on computer software configuration items.
     Also, in November 2003, a representative for COMOPTEVFOR stated, when
     asked about the number of software deficiencies for the tactical display, that if the
     alternative solutions resulted in more display screens than originally planned, an
     aircraft operator could not effectively perform the airborne electronic attack
     mission. As of June 2004, the integrated process team had not analyzed the level
     of risk associated with the 303 priority three software deficiencies.

     By not analyzing the level of risk associated with the number of priority three
     deficiencies, the integrated process team did not fully execute the software
     development processes that the Program Manager planned. Through the
     performance of a detailed risk analysis, the Program Manager could better inform
     the milestone decision authority of the effects of the alternative solutions on the
     performance requirements for the ICAP III Program software.




                                          26
Appendix C. Upgrades for the Improved
            Capability III System
   The ICAP III Program is one of several planned improvements to the EA-6B
   Prowler aircraft that will ensure that the aircraft remains the world’s premier
   tactical electronic warfare platform and is able to sustain the DoD airborne
   electronic attack mission through 2015.

   The ICAP III Program is a Navy Acquisition Category II program that will
   provide the electronic attack mission with selective-reactive jamming capability
   in a wider frequency range, improve information display and battle management
   capability, accommodate provisions for a modern data link, and improve the
   reliability of affected systems through the upgrades to the following systems:

      •   New On-board Receiver Subsystem. The Tactical Jamming System
          Receiver system replaces the ALQ-99 on-board weapon system. The
          receiver gives the EA-6B the ability to employ selective-reactive jamming
          of enemy integrated air defense systems. This upgrade will recover the
          effectiveness lost to modern electronic warfare, acquisition radars, and
          surface to air missiles by applying intense, narrow-spot jamming. The
          new receiver group has 10 weapons-replaceable assembly units.

      •   Tactical Display Subsystem. The new Tactical Display Subsystem,
          combined with an Interface Unit, will provide display and operator
          interface improvements and eliminate the use of the laptop computer in
          the cockpit. This technology will result in displays that allow the aircrews
          to focus on the relevant elements of friendly forces, the enemy, allied
          forces, weather, terrain, and numerous other fixed and dynamic data that
          comprise the “tactical picture.”

      •   Provisions for Connectivity Integration. To function as the sole
          airborne tactical jammer for DoD, the EA-6B aircraft, inherently, must be
          part of the larger “Sensor to Shooter” architecture. As such, the EA-6B
          aircraft must be capable of sending, receiving, and coordinating accurate
          and timely information from other air, land, and sea sensors and command
          and control centers. The addition of the Multifunctional Information
          Distribution System Link-16 network will provide this capability to the
          EA-6B aircraft.




                                        27
Appendix D. Additional Recommendations for
            the Operational Assessment of the
            Improved Capability III System
   The Commander, Operational Test and Evaluation Force issued an operational
   assessment for the EA-6B ICAP III weapon system on June 5, 2003. The
   COMOPTEVFOR identified 50 deficiencies of the EA-6B ICAP III, which were
   not critical to mission accomplishment, but detracted from the overall EA-6B
   operator efficiency or operator situational awareness. The COMOPTEVFOR
   suggested that the 50 deficiencies be corrected and verified during the dedicated
   operational test and evaluation phase. The 50 additional deficiencies identified
   for the ICAP III system include:

   1. Investigate and correct the cause of erroneous misidentification of threat
      emitters.

   2. Resolve deficiencies of a single strike group route when implementing
      reactive assignments.

   3. Investigate and correct the Tactical Jamming System Receiver lockups that
      occurred during various mission phases throughout operational assessment
      testing.

   4. Investigate and correct the areas of risk that cause an excessive heads-down
      time by the pilot.

   5. Correct the inability to choose between a moving map and a static display.

   6. Correct the illogical color display of emitters.

   7. Investigate and correct the unreliable nature of built-in tests.

   8. Investigate and correct inconsistent Reactive Assignment initiation time.

   9. Investigate and correct the area of risk that prevents the operator from
      changing the classification of a complex ambiguous emitter.

   10. Investigate and correct the inconsistent geo-locations.

   11. Investigate and correct the inadequacies of the Tactical EA-6B Mission
       Planning System mission planning tools.

   12. Investigate and correct the inadequacies of the Tactical EA-6B Mission
       Planning System user interface.

   13. Investigate and correct the inadequacies of the Tactical EA-6B Mission
       Planning System emitter libraries.



                                         28
14. Investigate and correct the cumbersome strike group route adjustment.

15. Correct the Operational Navigational Chart and the background images in the
    Tactical Pilotage Chart so that overlays are not washed out.

16. Investigate and correct the excessive generation of reactive assignments.

17. Investigate and correct the cumbersome display of new emitter information on
    the Alarms Page.

18. Improve the speed of Electronic Counter Measure Officer 2 and 3’s cursor.

19. Improve the functionality of Tactical Display Subsystem cursors.

20. Correct the obstruction of the upper 10 percent of the pilot’s display.

21. Improve display startup defaults on the geo-location page.

22. Investigate and correct the area of risk that permits the pilot to inadvertently
    turn off the anti-collision light.

23. Correct Pocket Checklist areas of risk.

24. Correct Naval Air Training and Operating Procedures Standardization areas
    of risk.

25. Investigate and correct the nonoptimized jammer assignment logic for band 9
    and band 10 Reactive Assignments.

26. Incorporate A-F functionality.

27. Correct cumbersome de-cluttering functionality.

28. Improve Bulls eye adjustment procedures.

29. Investigate and correct the area of risk that caused emitter symbols to be
    displayed without associated parametric information.

30. Incorporate a radar cursor slew function.

31. Improve mission clock functionality.

32. Improve soft keypad data entry procedures.

33. Improve training for ICAP III version 7/8 of the Tactical EA-6B Mission
    Planning System.

34. Incorporate a frequency management planning tool in version 7/8 of the
    Tactical EA-6B Mission Planning System that assists the operator with
    identifying and correcting frequency conflicts, such as Joint Restricted
    Frequency List.



                                      29
35. Investigate the area of risk that prevented operators from making Alarm
    Assignments.

36. Investigate and correct the area of risk that allows operators to inadvertently
    purge the active emitter file.

37. Investigate and correct the area of risk that caused the Tactical Display
    Subsystem to revert to status page upon library loads.

38. Incorporate a transmitter centroiding indication on the jammer assignment
    status display.

39. Investigate and correct the area of risk that caused an inconsistent display of
    information when changing the size of the emitter ellipse.

40. Improve jammer pod power failure and steering failure alerts.

41. Improve the display of changes to the jammer assignment status page.

42. Improve the alarm zone frequency adjustment sequence.

43. Correct the font size for easier reading.

44. Improve the usability of target tracker lines.

45. Incorporate a frequency/azimuth page on the pilot’s Tactical Display
    Subsystem.

46. Resolve the conflicting information presented to the operator on the jammer
    assignment status page.

47. Correct the altered Library Summary Mission Plan page priorities.

48. Change recorder reproducer set fail light to reflect presence of the data storage
    memory unit.

49. Incorporate a threat warning or radar homing and warning system.

50. Streamline ICAP III training for fleet operator use.




                                      30
Appendix E. Navy Development and Operational
            Test Procedures
    Through the test and evaluation process, the Navy will evaluate technical
    performance and system maturity to determine whether the ICAP III system is
    operationally effective, suitable, and survivable against identified threats. The
    Navy’s process includes developmental test, technical evaluation, operational test,
    and follow-on test phases to determine whether the ICAP III Program hardware
    and software have been adequately readied for production. A description of the
    Navy’s four test phases for the ICAP III Program follows.


Developmental Testing
    Developmental testing supports multiple sub-phases of ICAP III Program
    contractor and Government testing. The objective of developmental testing is to
    ensure that the designed hardware subsystems and related software performance
    meet the system specifications. Additionally, this test phase is to verify whether
    the ICAP III hardware and software modifications are properly installed, meet
    safety of flight requirements, function correctly, and satisfy top-level integrated
    system performance requirements. The Program Manager used the results of this
    phase to determine the integrated system’s potential to meet required operational
    characteristics in support of the low-rate initial production decision and to
    determine the degree of readiness to proceed to the technical evaluation.

    Northrop Grumman developed three complete sets of hardware subsystems to use
    for developmental testing. The contractor placed system one at the Naval Air
    Warfare Center Weapons Division, Point Mugu, California; and systems two and
    three on two EA-6B test aircraft. Northrop Grumman also planned to develop
    five increments of the ICAP III Program software. As of June 2004, the
    contractor had developed four increments. The Program Manager used the
    contractor’s third increment for the Navy’s technical evaluation process.
    Operational testers are using the fourth software increment in the operational test
    phase.

    Operational Assessment. During the developmental test phase, the Navy
    independent test agency performed an operational assessment to determine the
    potential operational effectiveness and potential operational suitability of the
    EA-6B ICAP III system. In June 2003, COMOPTEVFOR completed the ICAP
    III Program operational assessment. The Navy used the results of the operational
    assessment to support a decision to begin low-rate initial production. See
    finding A for the results of that assessment.




                                        31
Technical Evaluation
    During the Navy technical evaluation phase, the Naval Air Systems Command’s
    Technical Assurance Board and the ICAP III Naval Strike Air Test and
    Evaluation Squadron 23 performed independent testing of ICAP III hardware and
    software. To perform the evaluation, the squadron used its own pilots,
    maintenance services, safety oversight, and facility support. In July 2003, the
    Naval Air Squadron began testing the ICAP III hardware and software that had
    been integrated into the two EA-6B test aircraft. The Naval Air Squadron used
    the results of this phase to evaluate the readiness of the ICAP III to begin the
    operational testing phase. The Program Manager will also use the results of the
    technical evaluation to support the ICAP III Program full-rate production
    decision.


Operational Testing
    The Navy operational test and evaluation phase will determine whether the
    ICAP III system is operationally effective and suitable under realistic conditions.
    This test phase also will determine whether critical operational issue deficiencies
    that were previously identified have been resolved and assess the potential effect
    that system limitations may have on actual combat operations.

    Operational testing will be conducted on production-representative ICAP III
    hardware and software. At the conclusion of the tests, the Commander,
    Operational Test and Evaluation Force will provide an independent and objective
    evaluation report to the milestone decision authority stating whether the ICAP III
    is operationally effective and suitable. Successful accomplishment of operational
    evaluation will support a fleet introduction recommendation and support an
    ICAP III Program full-rate production decision.


Follow-on Test and Evaluation
    The Program Manager plans to use a follow-on test and evaluation phase to test
    additional planned EA-6B upgrades that will not be available when the ICAP III
    system is produced and installed on the aircraft. The systems that are scheduled
    for follow-on testing include the Multifunctional Information Distribution System
    Link-16 network and the Joint Mission Planning System.




                                         32
Appendix F. Audit Response to Management
            Comments on the Report

Deputy Assistant Secretary of the Navy (Air Programs)
  Comments
     The Deputy Assistant Secretary of the Navy (Air Programs), Office of the
     Assistant Secretary of the Navy (Research, Development, and Acquisition),
     responding for the Program Manager for the EA-6B, provided additional
     comments on the EA-6B Program Office’s cooperation with the audit team. The
     complete text of the management comments on statements in the draft report is in
     the Management Comments section of this report.

     Navy Comments. The Deputy Assistant Secretary stated that the Program
     Manager, through the ICAP III Integrated Process Team, had fully cooperated
     with the audit team in every Naval Air Systems Command meeting and field site
     visit.

     Audit Response. The Program Manager, through the ICAP III Integrated Process
     Team, generally complied with the audit team’s request for meetings and
     documentation. However, as stated in the draft audit report, we experienced
     difficulty in timely obtaining documentation that supported the ICAP III system
     life-cycle cost estimate. We requested that this information be provided for
     analysis in November 2003 at the beginning of the audit. Additionally, we
     experienced delays in discussing the ICAP III failure reporting and reliability
     issues with the reliability and maintainability Integrated Process Team Leader.
     Again, we requested to hold the meeting in November 2003. The Program Office
     did not make knowledgeable personnel available to meet and discuss the cost
     estimating and the failure reporting issues until after we prepared our proposed
     draft report and staffed it with the ICAP III Integrated Process Team in May
     2004. Earlier meetings with the knowledgeable personnel would have facilitated
     the conduct of the audit and reduced misunderstanding between the auditors and
     the Program Office staff.




                                        33
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Operational Test and Evaluation
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve and Affairs)
Assistant Secretary of the Navy (Research, Development and Acquisition)
  Commander, Naval Air Systems Command
     Program Executive Officer for Tactical Aircraft Programs
       Program Manager, EA-6B Improved Capability
Naval Inspector General
Auditor General, Department of the Navy
Commander, Operational Test and Evaluation Force

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organization
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          34
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        35
Department of the Navy Comments




                    37
38
39
40
41
42
43
44
45
46
47
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Acquisition Management prepared this report. Personnel of the Office
of the Inspector General of the Department of Defense who contributed to the
report are listed below.

John E. Meling
Rodney D. Britt
Melinda M. Oleska
Shaun B. Jeffery
Roberta C. Dameron
Douglas W. Slaughter
Peter C. Johnson
Jamie A. Bobbio
Wei K. Chang
Jacqueline N. Pugh
